                               U.S. SMALL BUSINESS ADMINISTRATION 

                                  OFFICE OF INSPECTOR GENERAL 

                                      WASHINGTON, D.C. 20416



                                                                                 AUDIT REPORT
                                                                          Issue Date: August 21, 2000

                                                                          Number: 0-23



To:               Robert J. Moffitt
                  Associate Administrator, Office of Surety Guarantees




From:             Robert G. Seabrooks
                  Assistant Inspector General for Auditing

Subject:          Audit of American Reliable Insurance Company

         Attached is a copy of the audit report on American Reliable Insurance Company (American Reliable) issued
by Cotton & Company, LLP. The report discusses the following problems: (1) required underwriting documentation
was not maintained, (2) unallowable losses and expenses were claimed, (3) expenses were not allocable to the bond,
(4) an expense was not supported by a cancelled check, (5) SBA’s guarantee percentage was not adjusted when the
final contract exceeded the statutory limit, and (6) all sources of recovery were not pursued.


          You may release this report to the duly authorized representative of American Reliable. The findings
included in this report are based on the auditors’ conclusions. The findings and recommendations are subject to
review, management decision, and corrective action by your office in accordance with existing Agency procedures
for audit follow-up and resolution. Please provide us your proposed management decision for each recommendation
on the attached forms 1824, Recommended Action Sheet, within 80 days. If you disagree with the recommendations,
please provide your reasons in writing.


        This report may contain proprietary information subject to the provisions of 18 USC 1905. Therefore, you
should not release this report to the public or another agency without permission of the Office of Inspector General.
Should you or your staff have any questions, please contact Robert Hultberg, Business Development Programs
Group at (202)205-7204.


Attachments
                      INDEPENDENT ACCOUNTANT’S REPORT ON THE

                                  PERFORMANCE AUDIT OF

                         AMERICAN BANKERS/AMERICAN RELIABLE
                               INSURANCE COMPANIES




Performed by:

Cotton & Company LLP
Certified Public Accountants
333 North Fairfax Street, Suite 401
Alexandria, Virginia 22314
$1.25 million for contracts with the same obligee and bond issue dates within several months. We then
reviewed project descriptions to determine if the bonds were for a single project divided into more than one
contract. We also determined if bonds were issued to sampled contractors that had defaulted on bonds prior
to bond execution dates.

        We conducted fieldwork in October and November 1998 at American Reliable’s offices in
Scottsdale, Arizona. The audit was conducted in accordance with Government Auditing Standards, 1994
revision, except as described below.

FOLLOW-UP ON PRIOR AUDITS

        The scope of our audit did not include following up on findings and recommendations from previous
audit reports.

AUDIT RESULTS AND RECOMMENDATIONS

         American Reliable did not comply with SBA’s policies and procedures for underwriting bonds.
Specifically, American Reliable did not maintain all required underwriting documents. American Reliable
also claimed unallowable losses and expenses, including those not covered by the bonded contract, expenses
not allocable to the bond, and an expense not supported by a canceled check. In addition, American Reliable
did not adjust the SBA guarantee percentage when final contract exceeded the $1.25 million statutory limit,
or pursue all sources of recovery. As a result, we questioned $887,954.

        We conducted an exit conference with American Reliable personnel on November 13, 1998, to
discuss preliminary findings and recommendations. American Reliable personnel stated that they would
attempt to locate additional documentation and canceled checks to support some of the findings noted.

        Our findings and recommendations are discussed in detail below.

Incomplete Underwriting Documentation Provided

        American Reliable did not obtain complete underwriting documents for all sample bonds tested.
Specifically, American Reliable did not maintain completed SBA forms in its files that are required when
underwriting SBA bonds for seven sample bonds. In addition, for one bond, American Reliable did not
provide the underwriting file (Sample No. 5).

         Title 13, Code of Federal Regulations (CFR) 115.40 (1994, 1995), and Title 13, CFR 115.21 (1996),
require retention of all aforementioned records. Accordingly, American Reliable was not in compliance
with record retention requirements.

        Recommendation: We recommend that the Associate Administrator, Office of Surety Guarantees,
        advise American Reliable to comply with record retention requirements for all remaining SBA
        bonds in the future.

        American Reliable Response: American Reliable stated that it noted the finding and
        recommendation for future underwriting compliance.

        Cotton & Company Response: None.


[FOIA EX. 4]
                                                     2

        American Reliable issued performance and payment bonds to [FOIA Ex.4] the contract amount. A
consultant’s report indicated that the contract was about 85 percent complete when [EX. 4] defaulted.
American Reliable paid [Ex. 4] of losses and expenses (net of recoveries) under these bonds. We questioned
SBA’s 80-percent guaranteed portion of [FOIA EX. 4] for the reasons discussed below.

        After [EX. 4] defaulted on the contract, American Reliable entered into a takeover agreement on
[EX. 4] under the terms of its performance bond. The takeover agreement assigned a completion contractor
to complete the original bonded contract plus additional work totaling [EX. 4]. This additional work was
not incorporated into the bonded contract by approved change orders. Instead, it was handled by a separate
agreement between the obligee and the principal [EX. 4] and a promissory note [EX. 4] to pay [EX. 4]
monthly, until the full sum of the agreement was paid. Under this arrangement, [EX. 4] essentially financed
the additional work; neither American Reliable nor SBA approved the separate agreement and promissory
note. By including the additional work in the takeover agreement, American Reliable implicitly agreed to a
material alteration in the bond, which was not approved by SBA.

          Title 13, CFR 115.13, Defenses of SBA, states that SBA is to be relieved of all liability under the
surety bond guarantee if the surety agrees to or concedes to any material alteration in the terms, conditions,
or provisions of the bonds without SBA’s prior written approval. A material alteration increases the bond
liability by 25 percent or $50,000, whichever is less.

         Additionally, CFR 115.16(c) (1996) states that loss under a performance bond is, at the surety’s
option, the sum necessary to meet the cost of fulfilling the terms of a bonded contract or the penal sum of the
bond. CFR 115.16 (e)(1) states that losses are amounts actually paid by the surety, which are specifically
allocable to the investigation, adjustment, negotiation, compromise, settlement of, or resistance to a claim
for loss resulting from breach of the terms of the bonded contract, if these amounts are itemized,
documented, and attributable solely to the loss under the guaranteed bond.

        We questioned SBA’s guaranteed portion of all claims under the bond, or [EX. 4]. As of September
30, 1998, American Reliable was still seeking recovery from the obligee for remaining contract funds and all
funds covering additional work.

        Recommendation: We recommend that the Associate Administrator, Office of Surety Guarantees,
        advise American Reliable to reimburse [EX. 4] of questioned costs to SBA.

        American Reliable Response: American Reliable provided the following in response to the issues
        stated above:

        •	      The takeover agreement for the original contract and additional work represented only
                claims under the performance bond, and not the payment bond. Therefore, only claims
                under the performance bond should be questioned. American Reliable later stated, however,
                that SBA should guarantee the total loss under the Code for Minimization of Loss.

        •	      American Reliable included the additional work in the takeover agreement to minimize the
                risk of loss. It was more cost effective to include the additional unbonded work as an
                enhancement to the takeover contractor and the obligee to obtain a more competitive




                                                       3

               price from the takeover contractor. The inclusion of additional items beyond the strict
               interpretation of the scope of the original bonded contract was beneficial in negotiations
               with the obligee.

       •	      American Reliable stated that, because of the sequence of remaining work, the bonded work
               could not have been completed without prior or concurrent completion of the unbonded
               work. Therefore, it would not have been cost effective to complete obligations under the
               bond without completing the unbonded work. Additional costs incurred in completing the
               unbonded work more than offset the cost of damages that would have accrued if the bonded
               work was not completed in a timely manner. The above actions were taken to minimize the
               risk of loss.

       Cotton & Company Response: We respond to each issue as follows:

       •	      American Reliable did not have SBA prior approval to include the additional work in the
               takeover agreement. Therefore, American Reliable implicitly agreed to a material alteration
               to the bond, and total liability is denied. The argument of payment versus performance bond
               coverage is irrelevant. We continue to recommend recovery of questioned costs of [EX. 4].

       •	      The surety’s obligation to minimize risk clearly required the surety to obtain SBA approval
               prior to signing the takeover agreement. Title 13, CFR 115.13, states that SBA is relieved
               of all liability under the surety bond guarantee, if the surety agrees to any material alteration
               in the terms, conditions, or provisions of the bond without SBA’s prior written approval.

       •	      The unbonded work was the sole responsibility of agreements between the principal and the
               obligee. Accordingly, it was the obligee’s responsibility to complete the unbonded work.
               The issues concerning damages for time delays or the cost effectiveness of combining the
               obligations are irrelevant.

[FOIA Ex. 4]

        American Reliable issued performance and payment bonds to [FOIA EX. 4] the contract amount.
The obligee declared [FOIA EX. 4] in default of its contract on [FOIA EX. 4]. American Reliable paid
[FOIA EX. 4] of losses and expenses (net of recoveries) under these bonds.

a. 	   In its response to the draft report, American Reliable provided a canceled check to support a [FOIA
       EX. 4] payment to [FOIA EX. 4], a claimant under the bond. Accordingly, we deleted the finding
       and recommendation.

b. 	   American Reliable improperly included on its Form 994H a [FOIA EX. 4] loan to [FOIA EX. 4] and
       a [Ex. 4] payment to a construction consultant, which were both allocable to a different bond [FOIA
       EX. 4]. The loan was apparently made to avoid an imminent breach of the other contract, although
       American Reliable classified it as a performance bond loss on its Form 994H. American Reliable
       received a [FOIA EX. 4] recovery, which offset the loan, on [FOIA EX. 4], and also included this on
       the Form 994H for the sample bond.




                                                      4

       Title 13, CFR 115.11, Definitions, states that loss adjustment expense must be specifically allocable
       to the investigation, adjustment, negotiation, compromise, or settlement of a given claim for loss.
       We did not question costs related to this misallocation, because both bonds were SBA guaranteed
       and in default status.

       American Reliable Response: American Reliable responded as follows to the two findings noted
       above:

       a.      American Reliable provided a copy of the canceled check to support the questioned claims
               of [FOIA EX. 4].

       b.      American Reliable did not respond to the finding regarding misallocation of payments to
               another bond.

       Cotton & Company Response: We respond to each issue as follows:

       a. 	    As stated above, this finding was resolved. Accordingly, we deleted the finding from our
               final report.

       b.      None.

[FOIA EX. 4]

       American Reliable issued performance and payment bonds [FOIA EX. 4], on [FOIA EX. 4] for
[FOIA EX. 4], the contract amount. The obligee issued [FOIA EX. 4] a default notification on [FOIA EX.
4]. American Reliable paid [FOIA EX. 4] of losses and expenses (net of recoveries) under these bonds.

      In its response to the draft report, American Reliable provided canceled checks to support 8
payments under the bonds totaling [FOIA EX. 4]. Accordingly, we deleted the finding and recommendation.

       American Reliable Response: American Reliable provided copies of canceled checks to support
       questioned claims of [FOIA EX. 4].

       Cotton & Company Response: As stated above, this finding was resolved. Accordingly, we deleted
       the finding from our final report.

[FOIA EX. 4]

        American Reliable issued performance and payment bonds to [FOIA EX. 4], on [FOIA EX. 4],
[FOIA EX. 4], the contract amount. The obligee issued a notice of termination to [FOIA EX. 4]. American
Reliable paid [FOIA EX. 4] of losses and expenses (net of recoveries) under these bonds.

      In its response to the draft report, American Reliable provided canceled checks to support 15
payments under the bonds totaling [FOIA EX. 4]. Accordingly, we deleted the finding and recommendation.

       American Reliable Response: American Reliable provided copies of canceled checks to support
       questioned claims of [FOIA EX. 4].

       Cotton & Company Response: As stated above, this finding was resolved. Accordingly, we deleted
       the finding from our final report.

[FOIA EX. 4]
                                                     5

        American Reliable issued performance and payment bonds to [FOIA EX. 4] on [FOIA EX. 4], the
contract amount. A letter from the obligee stated that approximately 12 percent of required work had been
completed through [FOIA EX. 4]; the contractor failed to show up at the project site a short time later.
American Reliable paid [FOIA EX. 4] of losses and expenses (there were no recoveries) under these bonds.

      In its response to the draft report, American Reliable provided canceled checks to support 28
payments under the bonds totaling [FOIA EX. 4]. Accordingly, we deleted the finding and recommendation.

       American Reliable Response: American Reliable provided copies of canceled checks to support
       questioned claims of [FOIA EX. 4].

       Cotton & Company Response: As stated above, this finding was resolved. Accordingly, we deleted
       the finding from our final report.

[FOIA EX. 4]

        American Reliable issued performance and payment bonds to [FOIA EX. 4] for [FOIA EX. 4] the
contract amount. The obligee declared [FOIA EX. 4] in default of its contract on [FOIA EX. 4]. American
Reliable paid [FOIA EX. 4] of losses and expenses (net of recoveries) under these bonds. We questioned
SBA’s 90-percent guaranteed portion of [FOIA EX. 4], for the reason discussed below.

         American Reliable did not provide a canceled check to support one payment under the bonds
totaling [FOIA EX. 4]. A check was issued on [FOIA EX. 4], but has not yet been cashed. Title 13, CFR
115.11, Definitions, defines loss adjustment expense as amounts actually paid.

         American Reliable provided canceled checks for 10 payments under the bond in its response to the
draft report. The finding and recommendation were revised accordingly.

       Recommendations: We recommend that the Associate Administrator, Office of Surety Guarantees,
       advise American Reliable to reimburse [FOIA EX. 4] of questioned costs to SBA.

       American Reliable Response: American Reliable provided copies of canceled checks to support 10
       of the 11 items questioned. American Reliable did issue the one remaining check, but it was never
       cashed by the payee and is still outstanding.

       Cotton & Company Response: American Reliable did provide conclusive evidence that questioned
       claims were actually paid for 10 of the 11 items questioned. The remaining check for [FOIA EX. 4]
       is still considered unresolved, and the finding will remain for this item.

[FOIA EX. 4]

        American Reliable issued performance and payment bonds to [FOIA EX. 4], on [FOIA EX. 4],
respectively. The obligee declared
[FOIA EX. 4] in default of its contract on [FOIA EX. 4]. American Reliable paid [FOIA EX. 4] of losses
and expenses (net of recoveries) under these bonds. We questioned [FOIA EX. 4] and American Reliable’s
compliance with SBA regulations for the reasons discussed below.

a. 	   American Reliable paid claims under a takeover agreement that incorporated [FOIA EX. 4] of
       approved change orders into the original [FOIA EX. 4] contract. The change orders were issued
       between [FOIA EX. 4], prior to the default date. Thus, the final contract amount of [FOIA EX. 4]
       exceeded the $1,250,000 statutory contract limit. Title 13, CFR 115.31(d), Contract Increases to
                                                    6

       Over $1,250,000, states that, if the contract increases above the $1,250,000 statutory limit after bond
       execution, SBA’s share of the loss should be limited as follows:
                                         $1,250,000 ÷ [FOIA EX. 4]

       American Reliable did not limit its guarantee percentage to 86.2 percent of losses and expenses
       paid. Accordingly, its claims for reimbursement included [FOIA EX. 4] of unallowable amounts
       calculated as follows:

                             [FOIA EX. 4] × 90%                $[FOIA EX. 4]
                             [FOIA EX. 4] × 86.2%               [FOIA EX. 4]

                                                              $ [FOIA EX. 4]

b. 	   American Reliable provided canceled checks to support 7 payments under the bonds totaling [FOIA
       EX. 4] with its response to the draft report. Accordingly, we deleted this finding and
       recommendation.

       Recommendation: We recommend that the Associate Administrator, Office of Surety Guarantees,
       advise American Reliable to reimburse [FOIA EX. 4] of questioned costs to SBA.

       American Reliable Response: American Reliable responded to these two findings as follows:

       a. 	    American Reliable disagreed with the recommendations in the audit report based on its
               interpretation that the payment bond did not exceed SBA statutory limits. Based on its
               interpretation, applicable bond losses under the payment and performance bonds would
               result in [FOIA EX. 4] reimbursable to SBA from the surety.

       b. 	    American Reliable provided copies of canceled checks to support questioned claims of
               [FOIA EX. 4].

       Cotton & Company Response: We respond to each issue as follows:

       a. 	    American Reliable agreed in principal that contract increases are subject to statutory limits
               requiring an adjustment of SBA’s share of the loss, but continued to assert that payment and
               performance bonds may be separated to calculate applicable statutory limits. Title 13, CFR
               115.31(d), states that, if a contract increases above the $1,250,000 statutory limit after bond
               execution, SBA’s share of the loss shall be limited by the applicable formula. The finding
               remains, and we continue to recommend recovery of questioned costs of [FOIA EX. 4].




                                                     7

        b. 	    As stated above, this finding was resolved. Accordingly, we deleted the finding from our
                final report.

[FOIA EX. 4]

        American Reliable issued performance and payment bonds to [FOIA EX. 4] the contract amount.
The obligee issued a notice of termination to [FOIA EX. 4]. American Reliable paid [FOIA EX. 4] of losses
and expenses (net of recoveries) under these bonds.

      In its response to the draft report, American Reliable provided canceled checks to support 7
payments under the bonds totaling [FOIA EX. 4]. Accordingly, we deleted the finding and recommendation.

        American Reliable Response: American Reliable provided copies of canceled checks to support
        questioned claims of [FOIA EX. 4].

        Cotton & Company Response: As stated above, this finding was resolved. Accordingly, we deleted
        the finding from our final report.

OTHER MATTERS NOTED

        We noted the following matters regarding bonds that were not in our sample, which we believe
should be reviewed further by either SBA’s OIG or OSG.

[FOIA EX. 4]

        During our review of the claim file for [FOIA EX. 4] we noted correspondence relating to another
bond [FOIA EX. 4] stating that it was issued by an agent who did not have valid powers of attorney in [FOIA
EX. 4], when the bond was executed. Payment and performance bonds were issued for [FOIA EX. 4] each,
the contract amount. We reviewed a [FOIA EX. 4], letter from American Reliable to its underwriters
questioning the bond validity, and stating that American Reliable expected to be held harmless for any
losses or costs associated with a claim on these bonds. Title 13, CFR 115.10, Definitions, states that
execution is defined as signing by a representative or agent with the authority and power to bind the surety.
Accordingly, we concluded that this bond is ineligible for SBA’s guarantee.

        Recommendation: We recommend that the Associate Administrator, Office of Surety Guarantees,
        notify American Reliable that it considers this bond ineligible for SBA’s guarantee and that it will
        deny liability on any claims submitted by American Reliable.

        American Reliable Response: American Reliable did not comment on this audit finding.

        Cotton & Company Response: The audit finding will remain as stated.

[FOIA EX. 4]

        Before beginning our audit, OSG asked us to review this bond to determine the disposition of a
[FOIA EX. 4] certificate of deposit that had been taken as collateral when the bond was executed. We
reviewed the underwriting and claim files and held discussions with American Reliable representatives.

         SBA Form 994B, Surety Bond Guarantee Underwriting Review, states that the surety required
additional security in the form of a [FOIA EX. 4] certificate of deposit. American Reliable was not aware of
the collateral when it processed claims under the bond and, therefore, did not pursue its right to liquidate the

                                                       8

 collateral as part of its recovery efforts. It stated in correspondence to SBA that the agent had stated that the
 collateral was held on another bond and was released when the project was completed; American Reliable
 could provide no evidence to support the agent’s statement. In a [FOIA EX. 4], letter to SBA, American
 Reliable requested that SBA process claims under [FOIA EX. 4], less the [FOIA EX. 4] representing the
 collateral.

          The collateral was not netted against claims submitted on the SBA Form 994H. During our exit
 discussions, an American Reliable representative stated that the company no longer had a relationship with
 the underwriters of this bond and were unable to obtain documentation to support the existence of the
 collateral. The representative agreed that American Reliable might have to absorb the loss related to this
 collateral.

         Recommendation: We recommend that the Associate Administrator, Office of Surety Guarantees,
         notify American Reliable to reimburse SBA [FOIA EX. 4], which is its guaranteed portion of the
         collateral ([FOIA EX. 4] × 80%) from present and future claims submitted for reimbursement under
         this bond. American Reliable should reimburse SBA [FOIA EX. 4] for claims paid by SBA under
         [FOIA EX. 4]. In addition, SBA will offset future claim reimbursements under this bond by [FOIA
         EX. 4], the remaining amount of SBA’s guaranteed portion of the collateral.

         American Reliable Response: American Reliable stated that it will reimburse SBA [FOIA EX. 4]
         and offset the remaining [FOIA EX. 4] of claims incurred on this bond.

         Cotton & Company: None.

 MANAGEMENT CONTROLS

          The scope of our audit did not include assessing management controls, and thus we did not identify
 or test such controls.

 SBA MANAGEMENT’S RESPONSE

         The Associate Administrator, Office of Surety Guarantees, stated he had reviewed the draft audit
report. He noted that the initial report had 11 findings of which five have been resolved and no
recommendations were made. He agrees with the remaining auditor’s recommendations.




                                                         9

                                                                       Attachment


                                         SAMPLE BONDS 





                             American                              Bond        Bond
Sample        Surety Bond     Reliable                            Approval    Default
  No.        Guarantee No.   Bond No.           Contractor Name     Date       Date

  1      [FOIA EX. 4] 


  2      


   3


  4


  5      


  6      


  7      


  8      





                                              10 

            APPENDIX A 


AMERICAN BANKERS/AMERICAN RELIABLE 

       INSURANCE COMPANIES 

   RESPONSE TO THE DRAFT REPORT

                                         Attachment 2 


                            American Reliable Insurance Company 

                                 SBA Draft Audit Response

                                          5/5/2000 


                                         [FOIA EX. 4] 


Our bank had trouble receiving a copy of the cancelled check so we have included a copy of the
check we issued and a copy of the bank statement showing the check had been cashed as proof of
payment on this item.

Check Date   Payee Transaction Check Number           Amount
______________________________________________________________________
[EX. 4]             Performance-Loss   [EX.4]
                                              [EX. 4]
                                                                                                                                          Appendix B

                                                        REPORT DISTRIBUTION



Recipient                                                                                                              No. of Copies


Associate Deputy Administrator for Capital Access ............................................................ 1 


General Counsel.................................................................................................................... 2 


Office of the Chief Financial Officer 

Attention: [FOIA EX. 4]...................................................................................................... 1

